WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1274

Richard G. Wern South Carolina Commission on Lawyer Cc
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of theBar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

 
 
   

   

Signature:

 

Date:

(Type or print) Name ohn Shannon Nichols

© mr. O ws Oms — O Miss
Firm ‘Supreme Court of South Carolina Office of Disciplinary Counsel ,
Address Post Office Box 12159 a _
City & State ‘Columbia, South Carolina Zip 2o2it —
Phone (803) 734-2038 Email jsnichols@sceourts.org

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Desa Ballard, Esquire

Ballard & Watson

226 State Street

West Columbia, South Carolina 29169

ce:
